No. 20-5795
IN THE SUPREME COURT OF
THE UNITED STATES
DON TEDFORD,

v.

Petitioner

PENNSYLVANIA,
Respondent
ON PETITION FOR WRIT OF CERTIORARI TO THE
SUPREME COURT OF PENNSYLVANIA

CERTIFICATE OF SERVICE
I, William R. Stoycos, Senior Deputy Attorney
General, certify that a true and correct copy of the
Brief in Opposition to Petition for Writ of Certiorari
has been served via U.S. First-Class, Regular Mail,
postage pre-paid, as follows:
Adam Cogan, Esquire
218 West Main Street, Suite A
Ligonier, PA 15658
724-995-8579
(Counsel for Petitioner)

/s/ William R. Stoycos
WILLIAM R. STOYCOS *
Senior Deputy Attorney General
Appeals & Legal Services Section
[Counsel for Respondents]
*Counsel of Record
PA Office of Attorney General
Strawberry Square, 16th Floor
Harrisburg, PA 17120
Phone: (717) 787-1401
Fax: (717) 783-5431
E-Mail: wstoycos@attorneygeneral.gov
DATE: March 5, 2021

